                                         Testimony of

                           THE HONORABLE TODD J. ZINSER
                                INSPECTOR GENERAL
                            U.S. DEPARTMENT OF COMMERCE

                                     before a hearing of the

     Appropriations Subcommittee on Commerce, Justice, Science, and Related
                                    Agencies,
                     United States House of Representatives

                               Wednesday, February 9, 2011



                             Department of Commerce
                        Appropriations for Fiscal Year 2012:
                       Top Challenges Facing the Department

Chairman Wolf, Ranking Member Fattah, and Members of the Subcommittee:

I appreciate the opportunity to testify today as you consider fiscal year (FY) 2012 appropriations
for the Department of Commerce. While the President’s budget for FY 2012 has not yet been
submitted, the budget submitted for FY 2011 was $8.9 billion.

The mission of the Department of Commerce is complex, encompassing many important aspects
of economic development and technological advancement—promoting innovation, providing
opportunities for economic growth and trade, predicting the weather, ensuring the accuracy of
standards of measurement, overseeing the census, and conserving and managing the oceans’
resources, just to name a few. Today I will briefly summarize several challenges faced by
Commerce that Congress may want to keep on its list of watch items. These areas are addressed
in greater depth in our recent Top Management Challenges Report, which we prepare annually as
required by the Reports Consolidation Act of 2000.1




1
    31 U.S.C. § 3516(d).
The challenges I will discuss focus on the following areas:
   •   Information Technology (IT) Security: Strengthening Department-wide information
       security.
   •   NOAA Environmental Satellite Programs: Effectively managing the development and
       acquisition of the National Oceanic and Atmospheric Administration’s (NOAA’s)
       environmental satellite programs.
   •   Acquisitions and Contracts: Managing acquisition and contract operations more
       effectively to obtain quality goods and services at reasonable prices and on schedule.
   •   American Recovery and Reinvestment Act: Enhancing the accountability and
       transparency of the Recovery Act’s key technology and construction programs.
   •   United States Patent and Trademark Office: Improving USPTO’s patent processing
       times, reducing its pendency and backlogs, and mitigating its financial vulnerabilities.
   •   NOAA: Effectively balancing NOAA’s goals of protecting the environment and
       supporting the fishing industry.
   •   Renovation of Department of Commerce Headquarters: Protecting against cost
       overruns and schedule delays during the Commerce headquarters renovation.
   •   Census Bureau: Effectively planning the 2020 decennial.
First, however, it is important to note that the Secretary has initiated a number of management
reforms designed to achieve a more integrated Department that leverages the strengths of its
various bureaus to achieve its goals. The Department has often been called a “holding company
of disparate bureaus” with many different goals, management methods, and operational
approaches. These reforms counter that way of operating and are consistent with
recommendations we have made regarding the need for strong and integrated departmental
management.


IT SECURITY
                                                             Figure 1. Annual Budgets
The federal government has long acknowledged                for Department IT Security
IT security to be a concern, especially in light of
                                                                     Program
the risks presented by system compromises,
policy violations, and increasingly sophisticated      $7,000,000
cyber attacks. With over 300 IT systems used to        $6,000,000
perform tasks from processing census and
                                                       $5,000,000
economic data to controlling weather satellites,
the Department recognizes the importance of            $4,000,000
protecting its systems and ensuring the integrity,     $3,000,000
confidentiality, and availability of its data.         $2,000,000
Figure 1 shows the increased resources the             $1,000,000
Department has applied to IT security.
                                                                $0
                                                                        FY 2008      FY 2009   FY 2010
                                                      Source: OIG, based on Department data



                                                  2
OIG has identified IT security as a management challenge for Commerce since 2001, and
accordingly the Department has made several improvements to its cyber defenses. Based on
certain policy changes and on the Department’s efforts to improve its security posture, we
recently recommended the Department upgrade its assessment of its information security
program from a material weakness to a significant deficiency.2 And based on our September
2009 audit report on its IT security workforce, the Department took several steps to introduce
stronger training policies and performance requirements, a development program for employees
in IT security roles, and a professional-certification requirement for select IT security positions.

Despite recent improvements, our ongoing assessment of Commerce’s progress toward
implementing effective IT security shows there is more to be accomplished. Every year we
conduct an independent review in accordance with the Federal Information Security
Management Act of 20023 to evaluate the Department’s IT systems and information security. In
our FY 2010 report, we concluded that the Department’s information security program and
practices have not adequately secured its systems. During our audit, we conducted vulnerability
assessments of Commerce IT systems, revealing thousands of potentially high-risk
vulnerabilities that had not been identified by the Department’s own efforts; these vulnerabilities
increase the risk of a serious breach of IT systems. Also, weaknesses in contingency
preparedness, security plans, and control assessments suggest that Commerce’s systems are not
sufficiently protected from cyber attack or other prolonged disruptions. Finally, the Department’s
process for reporting and tracking security weaknesses is deficient, affecting its ability to
monitor operating units’ corrective actions and potentially corrupting performance measures.

Our report recommended that the Department revise its IT security policy by providing specific
implementation guidance that will ensure more effective and consistent practices Department-
wide. Given the fragmented nature of the Department’s IT operations—the 12 operating units
each have their own CIO, IT staff, and internal processes—this is a particular challenge for
Commerce.

In FY 2011, we will assess the effectiveness of the annual IT security awareness training
program required for all Commerce employees. We will also evaluate the security features of
various Web-based applications and assess the effectiveness of the security controls protecting
the Department’s systems and information.


NOAA ENVIRONMENTAL SATELLITE PROGRAMS

For the past 50 years, NOAA, in partnership with the National Aeronautics and Space
Administration (NASA), has been responsible for developing and operating environmental
satellite systems. Beginning in the 1960s, polar-orbiting satellites have provided data for global
weather forecasting. And since the early 1970s, NOAA's geostationary satellites have provided

2
  A material weakness is a management control deficiency that the agency head determines to be significant enough to be reported
outside the agency (i.e., included in the annual Integrity Act report to the President and Congress, Federal Managers’ Financial
Integrity Act of 1982, Pub. L. No. 97-255 [codified as amended in scattered sections of 31 U.S.C.]). A significant deficiency is a
deficiency, or a combination of deficiencies, that is less severe than a material weakness, yet important enough to merit attention
by those charged with governance.
3
  44 U.S.C. § 3545.


                                                                3
data for weather warning services by maintaining continuous watch over the Western
hemisphere. Over time, the satellites have evolved to support additional monitoring of the
environment, including oceans, volcanic ash, forest fires, and space. NOAA’s environmental
satellite operations and weather forecasting are designated primary mission-essential functions of
the Department of Commerce because they directly support government functions the President
has deemed necessary to lead and sustain the nation during a catastrophic emergency.

But NOAA’s current constellation of operational environmental satellites is aging, and its
capabilities will degrade over time. As a result, the risk of gaps in critical satellite data is
increasing. Developing, launching, and operating these satellites are complex, costly, and lengthy
endeavors; however, the continuity of the data they provide is vital for accurate weather and
climate prediction and has national security and safety implications. Gaps in coverage could
affect our ability to forecast catastrophic weather events, increasing the potential for loss of life
or damage to property and infrastructure. To help prevent such an outcome, NOAA is engaged in
two major acquisitions to modernize these critical satellite systems and their current capabilities.

The first, the Joint Polar Satellite System (JPSS), estimated to cost $11.9 billion, will collect data
for short- and long-term weather and climate forecasting through 2026. JPSS was introduced in
FY 2010 (figure 2) after its predecessor program, the National Polar-orbiting Operational
Environmental Satellite System (NPOESS), underwent significant restructuring to address major
cost overruns, schedule delays, and performance shortfalls. NOAA must prevent further delays
to this program in order to reduce the risk of degrading the accuracy of weather forecasting and
losing the continuity of climate data.

     Figure 2. Potential Continuity Gaps in NOAA’s Polar Operational Satellite
                                     Programs
     Fiscal Year
      2009     2010   2011   2012    2013    2014     2015    2016    2017    2018     2019    2020    2021    2022    2023     2024    2025    2026    2027


                 NOAA‐19

     Feb ‘09
                                                    NPP

                         Oct ‘11
                                                                                               JPSS‐1

                                                      Spring/Summer ‘16
                                                                                                                        JPSS‐2

                                                                                     Summer ‘19
                       Satellite Launch Date
                       (Note: Actual launch date shown for NOAA-19, planned launch date for NPP, estimated launch date for JPSS-1, and estimated launch
                       readiness date for JPSS-2. Actual JPSS-2 launch date may be different. )
                       Satellite Check-Out Period - Planned time before all operational data available
                       Satellite Operational Period - Expected period to receive operational data from satellite based on design life
                       (Note: Some data is available during the satellite check-out period.)

                       Potential Continuity Gap - Actual gap, if any, depends on actual life of satellites and how well instruments are operating, as well
                       as other factors

     Source: OIG, derived from NOAA data




                                                                               4
The second system, the Geostationary Operational Environmental Satellite-R Series (GOES-R),
is intended to offer uninterrupted short-range warning and “now-casting” through 2028.
Estimated to cost $7.7 billion, this project experienced cost overruns, schedule delays, and
reduced performance capabilities in an earlier phase and had to be re-planned. Working with
NASA, NOAA is responsible for managing the entire program and for acquiring the ground
segment, which is used to control satellite operations and to generate and distribute instrument
data products. NOAA’s policy for its geostationary satellites is to have three satellites in orbit,
two operational satellites (GOES-East and GOES-West) and one on-orbit spare (figure 3). As
shown, just prior to the GOES-R planned launch in 2015 there would be two operational
satellites but no spare. GOES-R is needed to maintain NOAA's policy, first as an on-orbit spare
and soon after as an operational satellite.

             Figure 3. Continuity of GOES Operational Satellite Programs




        Source: NOAA

Given their histories, both programs require close oversight to minimize further delays and
prevent any interruptions in satellite coverage. We believe NOAA has three near-term priorities
for JPSS and GOES-R:

   1. Complete the transition from NPOESS to JPSS without experiencing further delays.
   2. Finish the development of JPSS’ ground system in time to support upcoming satellite
      launch readiness dates.
   3. Ensure that GOES-R does not experience further schedule slips or cost growth.

JPSS Transition. A critical task for NOAA is to prevent further delays in the transition to JPSS
from NPOESS. NPOESS, a joint project between NOAA, NASA, and the Department of
Defense, was initiated in 1995. For years during its development, the program experienced
significant setbacks that affected its budget, costs, capabilities, and launch dates—including the


                                                 5
launch date of the NPOESS Preparatory Project (NPP) satellite, a NASA-led risk reduction effort
to test NPOESS’ new instruments in flight. When NPOESS was restructured in 2010, JPSS was
established as NOAA’s component of the national polar environmental satellite capability (figure
4). As a result of the schedule delays, NPP will be used operationally to maintain continuity of
climate and weather forecast data until the first JPSS satellite is operational.

                                Figure 4. NPOESS/JPSS Timeline

 1995: NPOESS Program                  March 2009: NPOESS                    February 2010: 
                                       Program Changes                       Restructuring NPOESS

       •Purchase 6 satellites             •Costs have escalated to                •JPSS is proposed 
       •$6.5 billion                       $14 billion (December                  •Purpose of NPP 
       •First launch date                  2008 cost figure)                       changes from risk 
        scheduled for 2008                •NPOESS launch date                      reduction to 
                                           delayed till 2014                       operational use
                                          •NPP satellite launch                   •Transition to JPSS 
                                           date slips  from 2010 to                supposed to be 
                                           2011                                    completed by end of 
                                                                                   October 2010, now 
                                                                                   expected by April 
                                                                                   2011


     Source: OIG, based on information from NOAA

The transition to the restructured program was expected to be completed by the end of FY 2010,
but the date has now been pushed to spring of 2011. Although the ground system and some of
the instruments have been transferred, NOAA, NASA, and Defense are still negotiating with the
NPOESS contractor for the transfer of physical property for the remaining instruments and
settlement of intellectual property rights. The agencies’ ongoing negotiations could create further
delays and affect the launch readiness dates for JPSS satellites.

JPSS Ground System Development. While all of the instruments required for NPP have been
integrated onto the satellite and are undergoing environmental testing, the ground system's
development is later than originally planned. The NPP project team has recently focused on
preparing for ground and spacecraft compatibility testing; successful testing will be crucial to
keeping the program on schedule for NPP’s October 25, 2011, launch readiness date.

NASA, as NOAA’s acquisition agent, will continue to develop instruments, spacecraft, and the
ground system for JPSS satellites 1 and 2. NOAA will manage the overall program with
assistance from NASA. This program should leverage independent review team assessments,
which have provided impetus for improvements on GOES-R. Defense continues to evaluate the
best approach for maintaining the continuity of its polar satellites. It is critical that both NOAA
and Defense implement their satellite programs on schedule to reduce the risk of gaps in
coverage.

Avoiding Further Delays for GOES-R. GOES-R, too, is a complex program that must be
rigorously managed to ensure that the system reaches launch readiness as planned. Since its



                                                  6
inception, GOES-R’s projected costs have increased; a major satellite sensor was removed from
the program; the number of satellites to be purchased was reduced from four to two;4 and the
launch readiness dates for these satellites have slipped to October 2015 and February 2017.
According to January 2011 program documentation, since the August 2009 revision to the launch
schedule the overall program acquisition has remained within budget and on time. However,
during two program reviews (during spring and summer of 2010), independent teams identified
areas of concern for the GOES-R program office to address, including

    1. obtaining and maintaining adequate contractor staffing for spacecraft development;
    2. ensuring the spacecraft design’s suitability to the mission;
    3. ensuring adequate end-to-end testing for program components (instruments, spacecraft,
       and ground); and
    4. verifying satellite operational facility readiness.

Any further delays in the satellites’ launch readiness will increase the risk of degraded weather-
and climate-forecasting abilities. Our planned work for FY 2011 includes audits of select
development activities for JPSS and GOES-R. We will assess the adequacy of development and
program management activities supporting launch readiness and data continuity for these critical
satellite programs.


ACQUISITIONS AND CONTRACTS

In FY 2010, the Department of Commerce spent almost $4 billion (figure 5) to acquire a wide
range of goods and services to support such mission-critical programs as the 2010 decennial
census, satellite acquisitions, intellectual
property protection, broadband technology                  Figure 5. Acquisition
opportunities, management of coastal and                     Spending Between
ocean resources, information technology,
                                                           FY 2007 and FY 2010
and construction and facilities management.
With such a high-dollar investment at stake,     $4,000,000,000 
the Department needs effective acquisition       $3,500,000,000 
guidance, management, oversight, and             $3,000,000,000 
infrastructure so that it can meet its goals.    $2,500,000,000 
                                                           $2,000,000,000 
In June 2010, the Secretary directed the                   $1,500,000,000 
Department to conduct a comprehensive                      $1,000,000,000 
review of its acquisition processes and                     $500,000,000 
identify areas for improvement. This review                            $0 
was undertaken in response to significant
                                                                             FY 2007 FY 2008 FY 2009 FY 2010
acquisition missteps Commerce has
experienced in recent years, including the              Source: Department of Commerce Office of Acquisition
decennial’s handheld computers, the                     Management

4
 An option for two additional satellites is included in the contract. These would be designated GOES-T and GOES-
U during their development.


                                                       7
NPOESS and GOES-R programs, and issues we identified with NOAA’s problematic decision to
award a 20-year operating lease to house its Marine Operations Center-Pacific (MOC-P) at the
Port of Newport, Oregon. In response to the Secretary’s direction, Commerce has identified
opportunities to strategically strengthen and improve the quality of its acquisition functions, but
acquisition has many inherent risks and will require continued attention and improvement.

A major challenge facing the Department is its lack of cohesive policies and procedures for
program management and oversight of major systems acquisitions. The lack of effective
oversight leaves the Department without adequate visibility into major system acquisition
processes, which can result in costly delays while problems are corrected.

Despite Office of Management and Budget (OMB) guidance aimed at improving the use of
award fees, our audits of two Census contracts found several areas for improvement. In one case,
performance-based fees awarded to the contractors were often excessive, and the justification for
the awards was not properly documented. The payment structure of the other contract allowed
the contractor to claim awards even if performance levels fell below acceptable standards. Such
practices could lead to the Department paying out millions of dollars in award fees that were not
sufficiently designed or administered as required by regulations.

Commerce also needs to improve its policies and processes for making real property acquisition
decisions, as demonstrated by NOAA’s inadequate support for its decisions on MOC-P. Our
review of this case revealed that NOAA limited its options without a documented analysis based
on its preference for a consolidated facility; it did not, in our view, adequately consider the use of
existing federal facilities, which may have been more cost effective.

The Department has policies and procedures in place to protect itself—and taxpayers’ dollars—
from contracting with disreputable parties, i.e., firms or individuals who lack satisfactory records
of integrity and business ethics. 5 Overall, however, Commerce has not acted promptly to
suspend or debar contractors when necessary, thus leaving the Department open to contractor
fraud or impropriety.

Finally, in spite of a continuing need for skilled acquisition staff, the Department faces a very
high turnover rate in the acquisition workforce due to attrition and retirement.6 As experienced
acquisition professionals leave the Department, and with nearly half of the acquisition personnel
expected to retire within the next decade, Commerce must implement a strategy to keep its
workforce at the needed size and skill levels to support its mission. As part of our FY 2011 work,
we are assessing the adequacy of the strategic acquisition workforce plan Commerce completed
in March 2010 as required by OMB. We are also reviewing the Department’s progress on and
implementation of an OMB-required plan to reduce spending and increase savings on
acquisitions.




5
  Suspension and debarment policy for the Department’s acquisitions is codified in the Commerce Acquisition
Regulations at 48 CFR Subpart 1309.4.
6
  Twenty-four percent of the current workforce is eligible to retire. The attrition rates for the GS-1102 contracting
series and the GS-1105 purchasing series are 14 and 11 percent, respectively.


                                                           8
AMERICAN RECOVERY AND REINVESTMENT ACT

The Department received $7.9 billion through the American Recovery and Reinvestment Act of
2009. Of that amount, approximately $6 billion was obligated in the form of grants or contracts
for key technology and construction programs in four of the Department’s operating units: the
Economic Development Administration (EDA), the National Institute of Standards and
Technology (NIST), NOAA, and the National Telecommunications and Information
Administration (NTIA). As of December 31, 2010, these operating units have spent about
$920 million (or approximately 16 percent of their obligated funds), leaving significant spending
yet to be completed (figure 6).

             Figure 6. Breakdown of Obligations and Disbursements
                 for Recovery Act Grant and Contract Activitiesa
                                                                                    Total Disbursements 
      EDA Economic Investment
                                                                                    Total Obligations 
   NOAA Opoerations, Research, 
         and Facilities

 NOAA Procurement, Acquisition, 
       and Construction

      NIST Science and Technical 
        Research and Services

   NIST Construction of Research 
             Facilities

   NTIA Digital TV Converter Box 
             Coupons

    NTIA Broadband Technology                                                            $4.26 billion Æ
      Opportunities Program


                                    $0   $100,000,000       $200,000,000      $300,000,000               $400,000,000

Source: OIG, derived from operating unit data.
a
  Amounts reflect a $240 million rescission from DTV and a $302 million rescission from the Broadband
Technology Opportunities Program (BTOP). The “total obligations” bar for BTOP is not to scale; as of
December 31, 2010, the total obligation for the program was $4.26 billion. This includes both BTOP and
mapping programs.

The Department faces considerable challenges as it manages the funds it received through the
Recovery Act. NTIA must oversee and manage the funds awarded to BTOP grantees to expand
broadband Internet access across the nation, and the almost 200 Recovery Act-funded
construction and construction-related grants and contracts will also need careful oversight by
Commerce and its operating units.

BTOP Program Management. In our view, of the Recovery Act programs being managed by the
Department’s operating units, the one that presents the largest risk is NTIA’s BTOP. Between
December 2009 and September 2010, BTOP awarded over 230 grants, totaling $3.9 billion, but


                                                        9
as of December 31, 2010, only about 5 percent of obligated funds had been disbursed. In our
November 2010 report on the program’s post-award processes, we noted that NTIA has made
progress with its post-award operations. However, there are still several areas that can be
strengthened, such as internal controls and IT program expertise in the BTOP office,
documentation and training, and monitoring of awards and agreements.

Monitoring the largest and most complex grant program NTIA has ever overseen will be an
ongoing challenge. The grant awards went to a diverse group of recipients, and conditions
surrounding the awards themselves also vary widely. (Table 1 shows the composition of the
BTOP awards.) NTIA staff will have to track the recipients’ compliance with grant terms and
conditions, determine how well the recipients are monitoring any award subrecipients, and—
most importantly—ensure that the recipients are on track to deliver the broadband capabilities to
which they have committed. NTIA also will have to closely watch how its awardees manage the
often complex process of drawing down federal funds.

                          Table 1. BTOP Grant Award Composition




Source: OIG, derived from operating unit data.


Over the next 2 years, spending by BTOP grant recipients will increase substantially—which
will in turn significantly increase the potential for fraud, waste, and abuse. Given this, we are
currently conducting an audit of NTIA’s BTOP award monitoring and an inquiry relating to
concerns associated with an infrastructure grant award to a San Francisco Bay area recipient. Our
future work will include more risk-based reviews of individual grant recipient activity and
periodic site visits to grant locations so that we can complete financial and operational reviews.


                                                 10
Construction Grants and Contracts. While BTOP is the largest Commerce program funded by
the Recovery Act, NIST, NOAA, and EDA also saw an increase of $1.5 billion in Recovery Act
funds for contracts and grants, including $1.0 billion for construction and construction-related
projects (table 2). To complete these projects successfully, the agencies will need to overcome
the inherent risks associated with construction projects.

           Table 2. Construction-Related Recovery Act Awards by
                                  Agencya
                          No. of           Grant              No. of         Contract
     Agency
                          Grants          Amount             Contracts       Amount
     NIST                   16           $179 million           28          $202 million
     NOAA                     50         $159 million             36        $338 million
     EDA                      64         $141 million              0        $          0
     Total                  130          $479 million             64        $540 million
     Source: OIG, derived from operating unit data.
     a
       Dollar amounts have been rounded to the nearest million.

The goal of any federally funded construction project is to achieve the objectives established for
the project and to do so on time, within budget, and free from fraud. In addition to the challenges
accompanying any acquisition or grant project, construction projects are also at particular risk of
anticompetitive practices, substandard workmanship, defective materials, nonperformance, and
fraud. Grants and procurement officials need to be alert to such problems as they manage the
construction programs in their operating units. Currently, we are conducting audits of NIST’s
construction grants and contracts to assess the policies and procedures developed for Recovery
Act construction projects; determine whether NIST has personnel, processes, and systems in
place to monitor the grants and contracts; and evaluate the effectiveness of NIST’s contract
monitoring activities.


U.S. PATENT AND TRADEMARK OFFICE

USPTO is responsible for ensuring that the United States’ intellectual property system
contributes to a strong global economy, encourages investment in innovation, and fosters an
entrepreneurial spirit. It accomplishes this mission by serving as the sole federal agency
responsible for registering trademarks and granting patents.

Patents provide inventors with exclusive rights to their discoveries and contribute to the strength
and vitality of the U.S. economy. But USPTO’s ability to support U.S. innovation has been
hindered by a substantial backlog and increased processing times for patent applications. USPTO
is also faced with the challenges of accurately projecting the patent fees it relies on for funding
and updating its aging IT systems to support its operational requirements.

Pendency and Backlog. With a growing number of patent applications being filed, USPTO faces
immense and complex challenges in addressing patent pendency and application backlogs while
building a highly trained, stable workforce and improving patent quality. Since FY 2000, patent


                                                 11
pendency times have increased by an additional 10 months, and the backlog of unexamined
applications has more than doubled (see table 3). The large numbers of applications in process
and long waiting periods for patent approval create a significant risk to the innovation and
economic competitiveness necessary to maintain the nation’s position as a world leader in
innovation.

         Table 3. Progression of Patent Pendency and Backlog,
                        FY 2000 through FY 2010
                                                    FY 2000       FY 2005        FY 2010
       Patent Examiners                                2,900          4,300         6,200
       Total Time to Process (in months)                   25            29               35
       Application Backlog                          308,000        611,000       726,000
       Applications Filed                           312,000        410,000       509,000
       Patents Issued                               182,000        165,000       233,000
       Source: USPTO’s FY2010 Performance Accountability Report (PAR), 126-129 and 153;
       FY2005 PAR, 23 and 148; and OIG report IPE-15722, 4.


Since assuming office in August 2009, the Under Secretary of Commerce for Intellectual
Property (who is also the Director of USPTO) has identified the state of patent pendency and
backlog as a critical priority—as has the Secretary. USPTO’s strategic plan for FYs 2010
through 2015 addresses this critical area with an overall goal to optimize patent quality and
timeliness, including a specific goal to decrease the total processing time for patent applications
to 20 months by FY 2015. We have begun a review of the status and effects of USPTO’s
multiple initiatives to decrease patent pendency and reduce the backlog of patent applications.

Patent Fees and Financing Tools. As a fully fee-funded agency, USPTO relies upon the patent
and trademark fees it collects to fund its operations. These fees are used to support all segments
of USPTO operations, including staffing, IT systems, and training. Congress, through statute,
sets the majority of the patent fees. Congress also sets spending ceilings for USPTO through the
annual appropriations process; USPTO’s spending cannot exceed those ceilings (for FY 2010,
approximately $2 billion). With patent fees making up almost 90 percent of the fees collected by
USPTO, patent activities account for most of its operations.

Our December 2010 audit examined USPTO’s projection of patent fee collections and found a
lack of documented management controls over patent fee forecasting operations. Further, while
the aggregate differences between projections and collections appear to be within a generally
acceptable margin of forecasting error, during FYs 2006 through 2009 USPTO consistently over-
and underestimated—by tens of millions of dollars—some of its major patent fee revenue
streams. Our recommendations to USPTO were aimed at strengthening its management controls
over patent fee forecasting to provide increased accountability and transparency over these
critical operations. USPTO agreed with our recommendations and is developing a corrective
action plan to implement them.




                                                  12
USPTO is seeking legislative approval for new financing tools, such as greater authority to set
patent fees, and is also taking management actions, such as establishing an operating reserve to
protect its resources from unforeseen disruptions in revenue. According to USPTO, these tools
are intended to enhance its ability to respond to changes in the economy and the fluctuating
demand for its products and services. However, its ability to operate successfully will also
depend on how effectively it can reduce pendency and backlog while maintaining operational
efficiency.

IT System Upgrades. As USPTO begins to implement initiatives to meet its strategic goals, it is
simultaneously planning to address its outdated IT systems. The operating unit relies on aging,
unstable legacy technology to support its current operations. According to USPTO, system
maintenance requires long periods of down time, which prevents examiners from working on
their patent applications. Therefore, it plans to redesign and implement end-to-end electronic
patent processing so that most applications will be submitted, handled, and prosecuted
electronically. In doing so, it faces the risks and challenges inherent in any major IT system
change, such as management oversight; cost control; and ensuring that the new system is
delivered on time, meets user needs, and supports USPTO in achieving its goals.

As part of our FY 2011 work, we are currently evaluating USPTO’s readiness to successfully
manage the end-to-end modernization of patent IT systems. This initiative is currently estimated
to cost around $277 million by FY 2015, and has been assessed by OMB as a high-risk project
due to its high price and USPTO’s past history with similar efforts.


NOAA’S STEWARDSHIP OF MARINE RESOURCES
With an Exclusive Economic Zone of 3.4 million square nautical miles of ocean, the United
States manages the largest marine territory of any nation in the world. According to NOAA’s
2009-2014 strategic plan, the value of the ocean economy to the United States is more than
$138 billion, with $47 billion attributable to the commercial and recreational fishing industry.
Charged with protecting, restoring, and managing the use of living marine and coastal and ocean
resources, NOAA has faced significant challenges in promoting the health of marine resources,
especially in the areas of commercial fisheries and environmental restoration, while ensuring
they sustain the vital economic benefits we derive from them.

NOAA’s management of commercial fisheries and its enforcement of fair, transparent, and
effective regulations is a critical component of the successful execution of its mission. In one
policy, for example, NOAA endorsed a “catch share” strategy allocating a specific portion of a
total allowable fishery catch to individuals, cooperatives, communities, and other entities. Each
recipient of a catch share is required to stop fishing when its limit is reached, although catch
share recipients would no longer be constrained by fishing seasons. Some fishing communities
have expressed concerns about the quality of the data used to develop this strategy and the
potential negative economic effects of its implementation on small-business fishermen, while
other stakeholders view it as an effective strategy to achieve long-term ecological and economic
sustainability of the nation’s fishery resources. In its strategies and policies, NOAA must address
both the environmental and economic performance of fisheries while considering the impact of
its decisions on the nation’s fishing communities.


                                                13
There are additional critical aspects of NOAA’s environmental stewardship. NOAA responds
each year to over a thousand natural and human-induced incidents threatening life, property, and
marine resources. For example, when the April 2010 explosion on Deepwater Horizon, a
semisubmersible mobile offshore oil-drilling well in the Gulf of Mexico, resulted in the largest
oil spill in U.S. history, NOAA provided spill response support and damage assessment. As of
early February 2011, NOAA has dedicated approximately $175 million to these efforts. In
December 2010, we surveyed NOAA’s processes for tracking the costs associated with its oil
spill activities; we found that it needs to ensure that all costs charged to oil spill projects are
properly recorded in the financial system; supported by sufficient, appropriate documentation;
and reflect the full cost of oil spill response, damage assessment, and restoration activities.

To help the Gulf—and the people who earn their living from it—recover from the spill, NOAA
must continue to devote resources to monitoring and restoration for years to come. Since serious
threats to wildlife and the fishing community still exist, NOAA’s National Marine Fisheries
Service must track conditions along the coastal areas of Louisiana, Mississippi, Texas, Alabama,
and Florida to ensure seafood is safe for consumption. NOAA, as the lead agency for the damage
assessment process and the nation’s lead science agency covering oil spills, will also continue to
assess what environmental resources have been harmed. Finally, federal, state, and local
governments and affected communities will rely on NOAA to provide continued monitoring and
accurate data so responders can react to the oil’s effects on our ecosystem. In short, the Gulf oil
spill highlights the dual nature of NOAA’s mission to promote environmental health while
maintaining the commercial viability of the nation’s marine resources.


RENOVATION OF THE DEPARTMENT OF COMMERCE HEADQUARTERS

The Herbert C. Hoover Building (HCHB), Commerce’s Washington, D.C., headquarters, is
undergoing a comprehensive renovation. With a current cost estimate of approximately
$922 million,7 this project will be the first major upgrade to the over 1.8 million-gross-square-
foot building since its completion in 1932. The project will upgrade mechanical, electrical, and
life-safety systems; increase usable space; improve energy and environmental efficiency; and
incorporate security improvements.

The renovation, which began in January 2008, has been divided into eight phases, each of which
is planned to take approximately 18 months. Phase 2 (the current phase) and Phase 3 will be
financed by some $185 million in Recovery Act funds. The project is scheduled for completion
by 2021 (table 4).




7
 HCHB renovation project funding sources: GSA’s Federal Building Fund and Recovery Act funds, $794 million;
Commerce’s estimated contribution, $128 million.


                                                     14
                   Table 4. HCHB Renovation Scope of Work

      Phasea         Activities                                                       Timeframe

                     Replace air-conditioning system cooling towers. Build the
                                                                                    1/2008 – 1/2010
         1           swing space to house staff while future phases of the
                                                                                       (complete)
                     building renovation are in progress.
                     Interior and exterior renovations,b Corridor 1 (along
                     Constitution Avenue). Phase 2 also includes building
         2           facade restoration and site utilities replacement around      7/2009 – 11/2011
                     the entire building, as well as development of a staging
                     area for moving construction materials.
         3           Corridor 2 (second corridor north of Constitution Avenue)     11/2011 – 6/2013
         4           Corridor 3                                                     6/2013 – 1/2015
         5           Corridor 4                                                     1/2015 – 7/2016
         6           Corridor 5                                                     7/2016 – 2/2018
         7           Corridor 6                                                     2/2018 – 9/2019
          8            Corridor 7                                                     9/2019 – 3/2021
 Source: OIG, based on information from the General Services Administration (GSA).
 a
    All phases are subject to schedule changes.
 b
    Renovations include new mechanical, electrical, and plumbing systems; interior renovations; roof
   repairs; and architectural finishes.


GSA owns the building and is managing the renovation. However, to its credit, the Department is
also taking an active management role. It should continue to work closely with GSA as an
advocate for the operating units housed at HCHB since the project has the potential to disrupt
Commerce’s operations and affect its workforce. So far, the renovation project has experienced
some operational issues, as well as matters that could have proved disruptive—or even
harmful—to the building’s tenants.

In August 2010, we issued a report on the Department’s HCHB project management activities. In
it, we identified two areas that could adversely affect the project’s operation: Commerce did not
routinely track or reconcile the project invoices it received from GSA; also, GSA and the
Department disagreed on how to calculate the rental rate for the building. Since our report was
issued, the Department’s Office of Administrative Services has implemented new invoicing
procedures and made progress in resolving the rental rate calculation. A conservative simple
calculation shows that our involvement in resolving the rental rate issue saves the Department an
estimated $37 million a year in lease payments over the next 5 years.

Several incidents at HCHB have highlighted the potential for disruptions during the project.
During work on our initial project report, OIG became aware of health complaints from
Commerce staff occupying the renovation swing space; an inspection conducted by an
Occupational Safety and Health Administration (OSHA) compliance safety officer found that the


                                                 15
complaints were related to indoor air quality and temperature (being too hot or too cold), which
are not regulated by OSHA. And in another incident, a fire broke out at HCHB after normal
working hours on Thursday, October 7, 2010, in an area undergoing renovation. Everyone was
accounted for and there were no reports of injuries, but the building had to remain closed the
next day for hazardous materials testing. All areas of the building were cleared for occupancy on
October 12 (the next scheduled workday after the Columbus Day holiday); however, this
unexpected closure affected approximately 3,500 employees—a clear example of the disruptive
effect the renovation can have on Commerce’s operational efficiency and employee productivity
and safety.

OIG will continue to monitor project cost schedules, performance, and any health or safety issues
that may emerge as the renovation continues.


CENSUS BUREAU – 2020 DECENNIAL PLANNING

The 2010 census was an immense undertaking that encompassed more than a decade of
planning, testing, and implementing dozens of operations aimed at accurately counting the more
than 308 million people living in the United States.

The lifecycle cost for the decennial was approximately $13 billion. Considering the current
trends in population and cost growth, the U.S. Government Accountability Office (GAO)
recently estimated that if 2010 is used as a model for designing the next census, the total price of
the 2020 decennial could rise as high as $30 billion; the bureau’s own estimate is $22 billion
(figure 7).

        Figure 7. Increasing Lifecycle Costs for Decennial Censusa



                                                                      2020 costs 
                                                                        (est.):
                                                 2010 costs:
                                                                   $22 ‐ 30 billion
                                                 $13 billion

                               2000 costs: 
                                  $8.36 
                                  billion
        a
         Amounts have been adjusted to 2010 dollars. OIG calculations of 2000 costs are based on CPI inflation
        data from the Bureau of Labor Statistics.



By either estimate, such cost growth is simply unsustainable. Census must make fundamental
changes to the design, implementation, and management of the decennial census in order to
obtain a quality count for a reasonable cost—and in order to decide on, design, and implement


                                                     16
these changes, it has to start now. FYs 2011 and 2012 are critical years that will set the course
for how well the 2020 count is performed and how much it will ultimately cost.

In order to develop an innovative, flexible, cost-effective, and transparent approach to the 2020
census, the bureau needs to apply the lessons it has learned from the 2010 process. These lessons
have been highlighted by Congressional oversight as well as reviews by GAO and OIG; in
addition, Census is currently engaged in a comprehensive review of the 2010 census. The bureau
plans to use the results of this review, which include over 80 assessments and evaluations of
various decennial activities, to modify 2020 census operations as needed.

Alternative approaches to the labor-intensive end-of-decade address list improvement and
nonresponse follow-up operations must also be explored and tested early in the decade. Both
operations were major 2010 cost drivers—address canvassing, an effort to update the bureau’s
address list, cost $444 million and employed approximately 140,000 temporary staff. And the
nonresponse follow-up operation, which used more than three times that number of staff in
attempts to interview residents who had not responded to the initial mailed or hand-delivered
Census questionnaire, cost $1.7 billion.

To reduce costs and risk, and to increase the accuracy of its information, the bureau’s 2020
census planning approach needs to leverage existing surveys, field operations, and data assets.
Census should especially focus on enhancing operations by integrating the following into its
decennial planning efforts:

   •   Administrative Records. These records are collected for the administration of programs
       and provision of services by federal, state, and local governments and commercial
       entities. Administrative records include, for example, address and population information
       from housing assistance, health services, and tax forms. Census can use administrative
       records, in conjunction with U.S. Postal Service files, to continually update the address
       list.

   •   Continual Map Updates. Rather than an intensive effort to update its maps and address
       list just before the decennial, Census should continually update its information
       throughout the decade—using the existing trained workforce in both office and field
       operations—to further reduce cost and risk, and likely increase quality. Moreover,
       maintaining current maps and address lists benefits the American Community Survey
       (ACS) and all other nationwide data collection and production efforts.

   •   Internet Response. Census should explore the use of Internet and other electronic
       response options for the decennial census, which will potentially provide data more
       quickly and cost effectively than mailed-out paper forms. Electronic data gathering
       improves efficiency, provides management with near-real-time reporting, and reduces the
       amount of paper in the field—2010 personnel handled over 164 million paper
       questionnaires; electronic response options could substantially reduce that number.

   •   IT Systems. Census must reduce the costs and risks associated with IT systems by
       limiting the deployment of one-time-use technology. A less risky and more economical



                                                 17
       approach would be to build IT systems for use in various Census demographic surveys
       throughout the decade—systems that could also be used for decennial operations.

   •   The American Community Survey. The decennial is not the bureau’s only means of
       measuring the population characteristics of the United States. The ACS is a large ongoing
       nationwide survey supported by a permanent field workforce. The bureau could use the
       ACS as a replacement for its decennial content and data collection tests throughout the
       decade. Carrying out smaller, focused field tests early through existing surveys allows
       more testing that is easier to plan, modify, and implement.

   •   Project management. While the bureau made significant strides in project management
       this last decade, it must implement management practices that integrate planned budget
       and expenditure information with scheduled activities to better track the status of
       available funds, forecast impending overruns and underruns so that funds can be
       reallocated promptly, and improve the transparency of the decennial status to oversight
       and stakeholders. The bureau should also develop a robust and transparent process to
       document significant management decisions and their impact on costs.

In FY 2011, we will assess the success of the bureau’s 2010 update of the address and map
database, and evaluate the ACS’ program management, operations, and constituent satisfaction.
Throughout the decade, we will continue to follow Census’s 2020 decennial planning to ensure
this vitally important, constitutionally mandated operation runs smoothly and cost-effectively.

                                             ----


In conclusion, Mr. Chairman, in FY 2012 the Department of Commerce faces important and
challenging work related to the essential programs I have discussed here—and this work will
require diligent, proactive monitoring by OIG to help achieve success. This concludes my
prepared statement, and I will be pleased to respond to any questions you or other Subcommittee
members may have.




(OIG-11-018-T)


                                               18
